VISA Platinum Agreement and Disclosure
This agreement is between you and Team One Credit Union.
In this Agreement, "card" means any VISA credit card issued to you or any
authorized user by Issuer. "Cardholder" means each person who has signed
the VISA Application in connection with this Account. "Account" means each
account Issuer maintains under this Agreement. Cardholder agrees to be
bound by this Agreement when he or she signs Issuer's VISA credit card
application, signs or uses a card, or permits someone else to use a card.
1 Use of Card. Goods and services ("Credit Purchases") may be purchased
or leased by means of such card by Cardholder from any retail business
establishment ("Seller") who honors same upon the execution of a sales
slip evidencing such Credit Purchase and bearing the account number of
Cardholder on the face of such Card. Additionally, VISA Cash Advances
("Loans") may be obtained through use of such Card (a) upon execution of
a written request of Cardholder in a form furnished to Cardholder from any
bank that is a member, alone or in association with others, of VISA U.S.A.,
Inc. and (b) upon execution of a written separate agreement with issuer for
a VISA overdraft financing agreement, if offered by Issuer: Cardholder
understands and agrees that VISA cards may not be used for any illegal
transaction.
2 Promise to Pay. Cardholder shall be liable and agrees to pay Issuer for
Credit Purchases made by or for loans extended to Cardholder or anyone
else using such card unless the use of such Card is by a person other than
the Cardholder (a) who does not have actual, implied or apparent authority
for such use, and (b) from which Cardholder receives no benefit.
3 Authorized Users. Issuer may, at the request of the Cardholder, issue
additional cards for use by persons designated by such Cardholder as
"authorized users". Cardholder should not let anyone else use his or her
card. Participating merchants and banks are not required to honor a card
unless it is presented by the person whose name is printed on the card.
Cardholder shall be jointly and severally liable and agrees to pay for all
Credit Purchases and Cash Advances obtained through the use of any
card by an authorized user.
4 Statements. Issuer will send to Cardholder, at regular intervals
determined by Issuer, a statement reflecting for the prior period all card
transactions. Such statement shall be deemed correct and accepted by
Cardholder unless Issuer is notified to the contrary in writing within 60 days
of mailing/providing access to such statement.
5 Payments. Each month you must pay at least the minimum payment
amount shown on your statement by the date specified on the statement.
You may pay more frequently, pay more than the minimum payment or
pay the total new balance in full. If you make extra or larger payments,
you are still required to make at least the minimum payment each month
your account has a balance (other than a credit balance). For our VISA,
the minimum periodic payment required is the total new balance as shown
on Cardholder's monthly billing statement if the amount is under $25.00.
Otherwise, the minimum periodic payment is 3% of the unpaid balance or
$25.00, whichever is greater. The Credit Union will apply each payment
from highest to lowest interest rate. Cardholder will pay such statement by
remitting to Issuer within 25 days of the closing date reflected on the
statement either the full amount billed or, at Cardholder's option, an
installment equal to at least the required minimum payment.
6 Method of Computing the Finance Charge. The total finance charge for
a billing cycle is the finance charge imposed on Credit Purchases plus the
finance charge imposed on Cash Advances.
(a) Cash Advances-Average Daily Balance (Including New
Advances). A finance charge will be imposed on Cash Advances from the
date made. The finance charge on Cash Advances for a billing cycle is
computed by applying the monthly periodic rate to the average daily balance
of Cash Advances for the billing cycle, which is determined by dividing the
sum of the daily balances by the number of days in the billing cycle. Each
daily balance of Cash Advances is determined by adding the outstanding
unpaid balance of Cash Advances at the beginning of the billing cycle, any
new Cash Advances posted to the account, and subtracting any payments as
received or credits as posted to the account, but excluding any unpaid
finance charges. If the new balance (Cash Advances plus Credit Purchases)
shown on Cardholder's periodic statement for a billing cycle is paid in full
before the payment due date, no additional finance charges will be imposed.
(b) Credit Purchases – Average Daily Balance (Excluding New
Purchases). Cardholder has a grace period for payment of balance of Credit

Purchases. This means if Cardholder pays the entire new balance of Credit
Purchases only shown on the periodic statement by the due date shown on the
statement, the Issuer will not charge a finance charge on the average daily
balance of new Credit Purchases. The due date will be 25 days from the closing
date of that Statement. If the entire new balance shown is not paid within that
25 day period, a finance charge will be imposed on the average daily balance.
We calculate the interest charge on your account by applying the periodic rate
to the "average daily balance" of your account. To get the "average daily
balance" we take the beginning balance of your account each day and subtract
any unpaid interest or other finance charges and any payments or credits. We
do not add in any new purchases or fees. This gives us the daily balance.
Then, we add all the daily balances for the billing cycle together and divide the
total by the number of days in the billing cycle. This gives us the "average daily
balance."
7 Periodic Rate. The periodic rates applicable to purchases, cash advances,
and balance transfers are disclosed on the Disclosure that accompanies
this Agreement. Any penalty rate that may be imposed for failing to make a
payment by the payment due date is also disclosed on the Disclosure. Any
rate change will be made pursuant to applicable law.
8 Termination. Issuer may terminate Cardholder's privileges under the
Agreement at any time for any reason. Issuer will promptly send a written
notice of termination to the address to which it sends the periodic
statements. Cardholder may terminate his or her privileges under this
Agreement at any time by giving Issuer written notice of termination.
Cardholder's termination will be effective only after Issuer has received
written notice and Cardholder has returned all cards and checks to Issuer.
Cardholder remains liable for all obligations resulting from use of the card
or an authorized user's use of his or her card, even after Issuer receives
written notice. Cardholder also remains obligated to pay all amounts owed
on the account, including any amounts not yet billed. Each card is the
property of Issuer, is not transferable, and must be surrendered upon
demand. It can be cancelled as well as repossessed by Issuer or its
designee, and the privileges thereof revoked, at any time without prior
notice.
9 Credit Limit. Cardholder shall not use card to obtain Credit Purchases or
Loans which will increase the account's indebtedness to Issuer to an
amount in excess of the limit established by Issuer. The limit established
by Issuer is shown on the periodic statement.
10 Refusal to Honor Card. All Credit Purchases and Loans are effected at
the option of the Seller and Cash Advancing Institution, respectively, and
Issuer shall not be responsible for refusal by any Seller or Cash Advancing
Institution to honor the card or any Related Card. Any refund, adjustment,
or credit allowed by Seller shall not be by cash, but rather by a credit
advance to Issuer which shall be shown as a credit on Cardholder's
account statement with Issuer.
11 Attorneys' Fees and Costs. In the event of suit to collect unpaid
balances, all costs, including reasonable attorneys' fees, and also those
costs, expenses, and attorneys' fees incurred in appellate, bankruptcy, and
post judgment proceedings, shall be imposed, and the Cardholder agrees
to pay such costs, fees and expenses, except to the extent such costs,
fees, or expenses are prohibited by law.
12 Additional Charges. Additional charges may also be assessed if the
Cardholder pays the Credit Union with a check not honored by the
financial institution it is drawn on, makes delinquent payments, requests a
copy of a document, requests a replacement card or used the card at an
automatic teller machine, if such charges are not prohibited by law or
regulation. Cardholder agrees to pay such charges, all of which are
specified in the VISA Summary of Terms Disclosure provided with this
Agreement. All such charges shall be treated as credit purchases for
purpose of calculating finance charges unless prohibited by law or
regulation. If you use an automated teller machine that is not operated by
us, you may be charged a fee by the operator of the machine and/or by an
automated transfer network.
13 Security Interest. You grant the Credit Union a security interest under
the Uniform Commercial Code and under any common law rights the
Credit Union may have in any goods you purchase. If you give the
Credit Union a specific pledge of shares, your pledged shares will
secure your account. You may not withdraw amounts that have been
specifically pledged to secure your account until the Credit Union
agrees to release all or part of the pledged amount. Your Account is
secured by all other shares you have in any individual or joint account
with the Credit Union, except for shares in an Individual Retirement
Account or in any other account that would lose special tax treatment
under state or federal law if given as security. These other shares may
be withdrawn unless you are in default under this agreement. You
authorize the Credit Union to apply the balance in your individual or
joint share accounts to pay any amounts due on your Account should
you default. Collateral securing other loans you have with the Credit Union
may also secure this loan, except that a dwelling will never be considered as
security for this account, notwithstanding anything to the contrary in any
other agreement.

P.O. Box 1260
Saginaw, MI 48606
888.288.3261

Revision date: March 18, 2015

14 Default. Cardholder will be in default if (a) he or she fails to make a
payment on this Account when due; (b) he or she is in default under any
other loan, line of credit, or security agreement with Issuer; (c) he or she
becomes insolvent or a receiver is appointed for his or her property or if
court proceedings are started for liquidation of his or her debts; (d) a levy,
seizure, or attachment is made on his or her accounts; (e) any oral or
written statement by Cardholder or any third party to induce the Issuer to
open this Account proves to have been false in any material regard when it
was made; (f) he or she dies; or (g) facts and circumstances enable the
Issuer to reasonably doubt the collectability of Cardholder's obligation,
time being of the essence. If Cardholder is in default, Issuer may elect to
declare all amounts then owed to Issuer to be immediately due and
payable without notice or demand of any kind. If Cardholder is in default,
Issuer may also, at its option at any time, do one or more of the following:

Terminate or suspend Cardholder's privileges,

Refuse to make or authorize any Cash Advances, Balance
Transfers or Credit Card Purchases,

Refuse to honor and return any checks drawn on Cardholder's
account,

Sue Cardholder or take any other action to collect Cardholder's
account,

Charge Cardholder's account with all reasonable costs incurred in
trying to collect any amount owed under this Agreement, including
reasonable attorneys' fees and court costs.
15 Bankruptcy. Cardholder agrees that Cardholder will not use his or her
card unless he or she honestly intends to repay Issuer the full amount due
under this agreement when it is due, and reasonably believes that
Cardholder will be able to do so. Cardholder agrees that Cardholder will
not make any further use of his or her card and that he or she will
immediately return all cards and special checks Issuer has given
Cardholder if a petition for relief under any chapter of the Federal
Bankruptcy Code has been filed either by Cardholder or against
Cardholder, if Cardholder believes that the filing of such petition is
reasonably likely, or Cardholder has requested that an attorney prepare
such a petition for Cardholder, even if Cardholder might decide not to file
it. The entire unpaid balance that Cardholder owed Issuer under this
Agreement will automatically become due and payable immediately
without any further act or notice if a petition for relief is filed by or against
Cardholder under any chapter of the United States Bankruptcy Code.
16 Change of Terms. Issuer can change any of the terms of this Agreement,
including, but not limited to, the maximum periodic rate, at any time. If
Issuer does change the terms, Issuer will send a written notice 45 days
prior to the change to the address to which Issuer sends Cardholder's
statements. A change in terms increasing the interest rate will not apply to
Cardholder's current balance. Only new purchases, cash advances, and
balance transfers would be subject to the change in interest rate. Issuer
can change the terms of the account to reduce the minimum monthly
payment or the finance charges on Cardholder's account after giving
cardholder 45 days notice. Issuer's rights and responsibilities will not be
changed in any way by any oral statement, course of dealing, action or
inaction except on express written notice of change.
17 Other Terms. Issuer may, in Issuer's sole discretion, waive any penalty,
defer action on any penalty, extend the time for payment of any
installments, reduce the amount of any installments, or release any
Cardholder from liability without relieving any Cardholders from liability
under this agreement. Issuer may take any such action without notice.
Issuer need not notify Cardholder if Cardholder is in default or if
Cardholder's account becomes due and payable immediately. If
Cardholder is in penalty, no partial payment or performance by Cardholder
will cure Cardholder's penalty or restore Cardholder's rights and privileges
under this Agreement unless Issuer agrees in writing to restore them.
Issuer will continue to have all of its rights under this Agreement, even if
Issuer does not fully and promptly enforce and exercise them on all
locations. Issuer will not, under any circumstances, be liable for damages
resulting from any failure by anyone to honor a card and extend credit or
provide a Cardholder service. If any provision of this Agreement violates
any law, the remaining provisions of this Agreement will remain in effect.
Cardholder's account is governed by Michigan Law. If Cardholder is in
penalty, Issuer may sue him or her in any court which has jurisdiction over
the lawsuit.
18 Liability for Unauthorized Use. Cardholder will not be liable for
the unauthorized use of the credit card, provided Cardholder notifies
Issuer, orally or in writing, of the loss, theft, or misappropriation of the
card at:
Team One CU Plastics Department
PO Box 1260
Saginaw, MI 48606
888.288.3261
and provided further that Cardholder has not been grossly negligent or
fraudulent in the handling of the cards. For ATM and PIN transactions not
processed through VISA/Plus, you can lose no more than $50 if someone

accessed your account without your permission. If you don’t tell us within
two (2) business days after you learned of the unauthorized use, and we can
prove that we could have stopped someone from accessing your account
without your permission if you had told us, you could lose as much as $500.
If your statement shows unauthorized transfers, tell us at once. If you do not
tell us within 60 days after the statement was mailed to you, you may not get
back any money you lost after the 60 days if we can prove that we could
have stopped someone from taking the money if you had told us in time. If a
good reason (such as a long trip or hospital stay) kept you from telling us,
we will extend the time period. If you believe your card or PIN has been lost
or stolen or that someone has transferred or may transfer funds from your
account without your permission, call the number below, or write to: Team
One Credit Union, Attn: Plastics Department, PO Box 1260, Saginaw, MI
48606. If ten or more cards are issued for use by employees of a single
business or other organization, there is no limited Cardholder's liability
for any unauthorized use that occurs before Cardholder notifies Issuer as
provided herein: the business or organization may only impose liability on its
employees for unauthorized use of a card as authorized by Federal Law and
Regulations.
19 Permission to Monitor Telephone Calls. Cardholder agrees that Issuer,
its agents, or service companies may monitor and/or record any telephone
communications with Cardholder.
20 Arbitration Provision. Any claim, dispute, or controversy (whether in
contract, tort, or otherwise, whether pre-existing, present, or future, and
including statutory, common law, intentional tort, and equitable claims)
arising from or relating to any transaction you have ever entered into with
us pursuant to this Agreement or pursuant to any past agreement between
you and us or your application for such transactions or our advertisements,
promotion, or oral or written statements relating to such transactions or the
relationships which result from such transactions (including, to the full
extent permitted by applicable law, relationships with third-parties who are
not signatories to such agreements or this Arbitration Provision) or the
validity, enforceability, or scope of this Arbitration Provision, this
Agreement, or any past agreements (collectively "Claim") shall be
resolved, upon the election of you or us or said third-parties, by binding
arbitration pursuant to this Arbitration Provision. Notwithstanding the
preceding sentence, you will have the right to seek relief in a small claims
court for a Claim within the scope of the small claims court's jurisdiction;
provided, however, that Claims involving a punitive class or alleged
monetary damages exceeding the jurisdiction of a small claims court shall
be subject to binding arbitration pursuant to this Arbitration Provision. A
party who has asserted a Claim in a lawsuit in court may elect arbitration
with respect to any Claim subsequently asserted in that lawsuit by any
other party or parties. If arbitration is chosen by any person entitled to elect
to arbitrate a Claim, then arbitration of all Claims shall be mandatory and
will be conducted with the AAA pursuant to the AAA's Consumer
Arbitration Rules; provided, however, that if for any reason the AAA is
unable or unwilling or ceases to serve as arbitration administrator, an
equivalent national arbitration organization utilizing a similar code of
procedure will be substituted by us. There shall be no authority for any
Claims to be arbitrated on a class action basis. Further, arbitration
can only decide our or your Claim and may not consolidate or join
the claims of other persons who may have similar claims. Any
participatory hearing that you attend will take place in the federal judicial
district of your residence. We will pay the AAA's filing fee, other AAA fees,
and the arbitrators' compensation for any Claim which you may file against
us. Unless inconsistent with applicable law, each party shall bear the
expense of their respective attorneys', experts', and witnesses' fees,
regardless of which party prevails in the arbitration. This arbitration
agreement is made pursuant to a transaction involving interstate
commerce, and shall be governed by the Federal Arbitration Act ("FAA", 9
U.S.C. Sections 1-16). The arbitrator shall apply applicable substantive law
consistent with the FAA and applicable statutes of limitations and shall
honor claims of privilege recognized by law. Judgment upon the award
rendered by the arbitrator may be entered in any court having jurisdiction.
This Arbitration Provision shall survive satisfaction of your contractual
obligations and termination of this Agreement or any past agreement you
have entered into with us. If this Agreement or any past agreement
between you and us or any portion of such agreements is deemed invalid
or unenforceable on the basis that such agreements violate applicable
usury law or for any other reason, it shall not invalidate this Arbitration
Provision; in such instance, the parties expressly acknowledge and agree
that this Arbitration Provision shall survive the deemed nullity of such
agreements and shall be severed from such agreements (or the invalid or
unenforceable portion of such agreements). Similarly, if any portion of this
Arbitration Provision is deemed invalid or unenforceable under the FAA, it
should not invalidate the remaining portions of this Arbitration Provision.

P.O. Box 1260
Saginaw, MI 48606
888.288.3261

Revision date: March 18, 2015

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:

Team One Credit Union
PO Box 1260
Saginaw MI 48606

In your letter, give us the following information:

Account information: Your name and account number.

Dollar amount: The dollar amount of the suspected error.

Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:

Within 60 days after the error appeared on your statement.

At l e a s t 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing [or electronically]. You may call us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the
error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:

We cannot try to collect the amount in question, or report you as delinquent on that amount.

The charge in question may remain on your statement, and we may continue to charge you interest on that amount.

While you do not have to pay the amount in question, you are responsible for the remainder of your balance.

We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:

If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.


If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We
will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not
pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must
have been more than $50 (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if
we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing [or electronically] at:
Team One Credit Union
PO Box 1260
Saginaw MI 48606
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our decision.
At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

P.O. Box 1260
Saginaw, MI 48606
888.288.3261

Revision date: March 18, 2015

